IN THE
SUPREME COURT OF THE UNITED STATES

GERALD ROSS PIZZUTO, JR.,
Petitioner,
v.
STATE OF IDAHO,
Respondent.

On Writ of Certiorari to the
Idaho Supreme Court

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Jonah J. Horwitz*
FEDERAL DEFENDER SERVICES OF IDAHO, INC.
702 West Idaho Street, Suite 900
Boise, Idaho 83702
Jonah_Horwitz@fd.org
208-331-5530
*Counsel

of Record

Pursuant to Supreme Court Rule 39, Petitioner Gerald Ross Pizzuto asks
leave to file the accompanying petition for writ of certiorari without prepayment of
costs and to proceed in forma pauperis.
Mr. Pizzuto is indigent and the costs of the appeal below were ordered to be
at county expense. A copy of the order is attached as Exhibit 1.
In addition, Mr. Pizzuto was granted in forma pauperis status by the United
States District Court for the District of Idaho on July 20, 2006. A copy of the order
is attached as Exhibit 2. In that same order, the Federal Defenders were appointed
to represent Mr. Pizzuto. See Exhibit 2. Mr. Pizzuto continues to be represented by
his lawyers with the Federal Defenders in various state and federal courts pursuant
to his in forma pauperis status and Federal Rule of Appellate Procedure 24(a)(3).
Respectfully submitted this 23rd day of September, 2021.
/s/ Jonah J. Horwitz
Jonah J. Horwitz
Counsel for Petitioner

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS – Page 1

Pizzuto v. State of Idaho
Filed in Support of Motion for Leave to Proceed In Forma Pauperis

EXHIBIT 1

(Order Granting Motion That Costs of Appeal
be at County Expense, Pi zzuto v . State , Case
No. CV 03-34748)

IDAHO COUN rv

mrmlcr com"

0758:” __
KM

FEB

1

1

ATHY M

IN

THE DISTRICT COURT OF THE SECOND JUDICIAL

72m

DISTWQERT
\ _

DEPUTY

OF THE STATE OF IDAHO,

IN

GERALD ROSS PIZZUTO, JR.,

AND FOR THE COUNTY OF IDAHO

)

Case No.

CV 03-34748

)

PC

t't'
I

lOner,

ORDER GRANTING MOTION
THAT COSTS 0F APPEAL BE AT
COUNTY EXPENSE

g
)

v
)
)

STATE 0F IDAHO,
;

Respondent.

)

(CAPITAL CASE)

)

)

Having duly considered
[T IS

Petitioner’s

HEREBY ORDERED that all

Motion

that

Costs of Appeal bc

costs of appeal to the Idaho

instant matter, including all costs associated with preparation

Reporter’s Transcripts. shall be

at

at

County Expense;

Supreme Court

in the

of the Clerk’s Record and any

county expense.

f»
IT IS

SO ORDERED this

I

l

day of February 2020.

SACK)“.
Honorabl Jay Gaskill
Distnct Ju

e

—
ORDER GRANTING MOTION THAT COSTS OF APPEAL BE AT COUNTY EXPENSE

1

CERTIFICATE OF SERVICE
hereby certify that on the LEday of February 2020. served thc foregoing document
by method indicated below, postage prepaid where applicable, addressed 10 the following:
l

l

LaMom

U.S. Mail

Anderson
Deputy Allomey General

L.

Hand Delivery
Facsimile

Chief, Capital Litigation Unit

Statehouse Mail.

Room

Ovcmighl Mail (Fed Ex)

IO

PO Box

83720
Boise. 1D 83720-0010

X

U.S. Mail

Roland Gammill
Trial

Coun

Second
P.O.

Hand Delivery

Administrator

Facsimile

Judicial District

Box 896

Lewiston. ID 8350l

iCourt File and Serve

E

Ovemighl Mail (Fed Ex)
iCoun Filc and Serve

Nancy Towlcr

U.S. Mail

Court Reponer

[land Delivery

Nez Pcrce County Counhouse
1230 Main Street
PO. Box 896

Overnight Mail (Fed Ex)

Facsimile

7<

iCourt File and Serve

Lcwiston. ID 8350]

Jonah Horwitz

U.S. Mail

Assistant Federal Defender

Hand Delivery

Capital Habeas Unit

Facsimile

Federal Defender Services 0f Idaho

Overnight Mail

702

W.

Idaho SL. Stc. 900

x

(ch

Ex)

iCourt File and Serve

Boise. Idaho 83702

Eguty C‘erk

ORDER GRANTING MOTION THAT COSTS 0F APPEAL BE AT COUNTY EXPENSE 2

Pizzuto v. State of Idaho
Filed in Support of Motion for Leave to Proceed In Forma Pauperis

EXHIBIT 2

(Order Granting In For ma Pauperis Status and
Appointing Counsel, Pi zzuto v . Hardison ,
Case No. CV 05-516-S-BLW)

Case 1:05-cv-00516-BLW Document 7 Filed 07/20/06 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO

GERALD ROSS PIZZUTO, JR.,

)
)
Petitioner,
)
)
v.
)
)
JOHN HARDISON, Warden,
)
Idaho Maximum Security Institution, )
)
Respondent.
)
_____________________________ )

Case No. CV 05-516-S-BLW

CAPITAL CASE
ORDER

The Court of Appeals for the Ninth Circuit has authorized Gerald Ross
Pizzuto, an Idaho capital inmate, to file a “second or successive” Petition for Writ
of Habeas Corpus in the District Court. (Docket No. 2.) In his Petition, Petitioner
alleges that he is mentally retarded and that his execution would violate the Eighth
Amendment under Atkins v. Virginia, 536 U.S. 304 (2002).1
This Court has conducted an initial review of the Petition, as required by
Rule 4 of the Rules Governing Section 2254 Cases, and concludes that the Petition
will not be summarily dismissed. Accordingly, Petitioner’s request for the
appointment of counsel shall be granted, and attorneys Joan Fisher and Robert

1

Petitioner’s earlier attempt to file a second or successive petition, on grounds other than
those presented here, was dismissed for lack of jurisdiction. See Case No. CV 01-374-S-BLW.
ORDER - 1

Case 1:05-cv-00516-BLW Document 7 Filed 07/20/06 Page 2 of 3

Gombiner shall be appointed to represent Petitioner during these proceedings. 21
U.S.C. § 848(q)(4)(B); D. Idaho. L. Civ. R. 9.2(d)(1).
Petitioner has informed the Court that he has included the Atkins claim in a
pending state court appeal. It appears that Petitioner filed his federal Petition at
this time in an effort to comply with the statute of limitations and to secure a place
in line while he attempts to exhaust his state court remedies. See Pace v.
DiGugliemlo, 544 U.S. 408, 416 (2005) (suggesting such a procedure). As a result,
Petitioner and Respondent have a filed a joint Motion and Stipulation to Hold
Proceedings in Abeyance. (Docket No. 6.) The Court finds good cause to stay the
federal matter, and the Motion shall be granted. Petitioner shall file quarterly
status reports, and the parties shall immediately notify the Court when the state
court proceeding has concluded.
ORDER
NOW THEREFORE IT IS HEREBY ORDERED that Petitioner’s
Application to Proceed In Forma Pauperis and for Appointment of Counsel
(Docket No. 3) is GRANTED. Joan Fisher of the Capital Habeas Unit, Federal
Defenders of Eastern Washington and Idaho, and Robert Gombiner of the Federal
Defenders of Western Washington, shall be appointed to represent Petitioner
during the pendency of these proceedings.
ORDER - 2

Case 1:05-cv-00516-BLW Document 7 Filed 07/20/06 Page 3 of 3

IT IS FURTHER ORDERED that the Capital Habeas Unit’s Motion for
Permission to Continue to Represent Petitioner in State Courts (Docket No. 5) is
GRANTED to the extent that counsel has requested the Court’s authorization, and
not an order of appointment, to appear in state court on Petitioner’s behalf in
matters related to the federal proceeding.
IT IS FURTHER ORDERED that Petitioner and Respondent’s joint Motion
and Stipulation to Hold Proceedings in Abeyance (Docket No. 6) is GRANTED.
This case shall be stayed pending completion of the state court matter currently on
appeal in Idaho Supreme Court Case No. 32679. Petitioner shall file quarterly
status reports, and the parties shall immediately notify the Court upon completion
of the state court matter.
DATED: July 20, 2006

B. LYNN WINMILL
Chief Judge
United States District Court

ORDER - 3

